      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                          Washington, D.C. 20201




March 24, 2010

TO:            Charlene Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicaid Compound Drug Expenditures in California for Fiscal Years
               2004 and 2005 (A-09-08-00034)


Attached, for your information, is an advance copy of our final report on Medicaid compound
drug expenditures in California for fiscal years 2004 and 2005. We will issue this report to the
California Department of Health Care Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Lori A. Ahlstrand, Regional Inspector General for Audit Services, at (415) 437-8360 or
through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-08-00034.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103




March 31, 2010

Report Number: A-09-08-00034

David Maxwell-Jolly, Ph.D.
Director
Department of Health Care Services
1501 Capitol Avenue, MS 0000
Sacramento, CA 95899-7413

Dear Dr. Maxwell-Jolly:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Compound Drug Expenditures in
California for Fiscal Years 2004 and 2005. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jerry McGee, Audit Manager, at (323) 261-7218, extension 603, or through email at
Jerry.McGee@oig.hhs.gov. Please refer to report number A-09-08-00034 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – David Maxwell-Jolly, Ph.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF MEDICAID COMPOUND
DRUG EXPENDITURES IN CALIFORNIA
       FOR FISCAL YEARS
         2004 AND 2005




                       Daniel R. Levinson
                        Inspector General

                          March 2010
                         A-09-08-00034
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers the Medicaid program.

In addition to providing mandatory Medicaid services, States may offer certain optional services,
such as outpatient prescription drugs, to eligible Medicaid beneficiaries. Most States, including
California, administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program. The program generally pays for covered outpatient drugs if the
drug manufacturers have rebate agreements with CMS and pay rebates to the States. Under the
drug rebate program, CMS provides the States with a quarterly Medicaid drug tape, which lists
all covered outpatient drugs, indicates a drug’s termination date, if applicable, and specifies
whether the Food and Drug Administration has determined the drug to be less than effective.
CMS guidance instructs the States to use the tape to verify coverage of the drugs for which they
claim reimbursement.

Pharmacists create compound drugs by combining two or more prescription or nonprescription
drug products and then repackaging them into a new form. For each compound drug claim,
CMS guidance states that the drug code and corresponding quantity for each ingredient must be
included on the claim for Medicaid reimbursement.

In April 2009, we issued a report on California’s Medicaid outpatient drug expenditures for
Federal fiscal years (FY) 2004 and 2005 (A-09-07-00039). We excluded from our review the
total of approximately $75 million for compound drug expenditures for which the State agency
did not have readily available supporting documentation that identified the individual drug
ingredients. This review covers $58.3 million of that amount, which represents compound drug
claims that the State agency maintained in electronic format.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid compound drug expenditures complied with Federal requirements related to whether
the compound drug ingredients were terminated, included on the CMS quarterly drug tapes, or
less than effective.




                                                i
SUMMARY OF FINDINGS

The State agency’s claims for reimbursement of Medicaid compound drug expenditures for
FYs 2004 and 2005 did not fully comply with Federal requirements. Of the $58.3 million
($29.5 million Federal share) reviewed:

      $759,078 ($383,467 Federal share) represented expenditures for compound drug
       ingredients that were not eligible for Medicaid coverage because they were terminated
       drugs for which the termination dates were listed on the CMS quarterly drug tapes before
       the drugs were dispensed and

      $2,649,556 ($1,341,413 Federal share) represented expenditures for compound drug
       ingredients that were not listed on the quarterly drug tapes and that may not have been
       eligible for Federal reimbursement.

The remainder of the $58.3 million reviewed met the Federal requirements described in our
objective.

The State agency had inadequate controls to ensure that all of its compound drug expenditures
complied with Federal requirements related to whether the drug ingredients were terminated and
included on the quarterly drug tapes.

RECOMMENDATIONS

We recommend that the State agency:

      refund $383,467 (Federal share) to the Federal Government for expenditures for
       compound drug ingredients that were not eligible for Medicaid coverage;

      work with CMS to resolve $1,341,413 (Federal share) in expenditures for compound drug
       ingredients that were not listed on the quarterly drug tapes and that may not have been
       eligible for Medicaid coverage; and

      ensure that claimed Medicaid compound drug expenditures comply with Federal
       requirements, specifically:

          o claim expenditures only for compound drug ingredients that are dispensed before
            the termination dates listed on the quarterly drug tapes and

          o verify whether compound drug ingredients not listed on the quarterly drug tapes
            are covered under the Medicaid program and notify CMS when drugs are missing
            from the tapes.




                                               ii
STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report (included in their entirety as the Appendix), the State agency
did not specifically agree with our refund in the first recommendation. However, the State
agency commented that it would request that providers resubmit claims using correct drug codes
or would recoup the amounts paid for terminated ingredients. The State agency said that it
would adjust the Federal share to reflect these actions. The State agency agreed with our second
recommendation to work with CMS to resolve the Federal share for drugs not listed on the
quarterly drug tapes.

The State agency did not specifically agree with our third recommendation. The State agency
commented that it would (1) continue to make changes to its claim processing system to ensure
that terminated drugs are not reimbursed and (2) work with the new fiscal intermediary to change
the reporting process in the new claims processing system to ensure that nondrug items are
claimed in the appropriate reporting categories. The State agency did not address the last part of
our third recommendation.

We continue to recommend that the State agency notify CMS when drugs are missing from the
quarterly drug tapes.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Medicaid Program..............................................................................................1
              Medicaid Outpatient Prescription Drug Program ..............................................1
              Compound Drugs ...............................................................................................2
              Reimbursement of Medicaid Expenditures........................................................2
              Prior Office of Inspector General Report...........................................................2

          OBJECTIVE, SCOPE, AND METHDOLOGY............................................................2
               Objective ............................................................................................................2
               Scope..................................................................................................................2
               Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ..........................................................................4

          CLAIMS FOR TERMINATED COMPOUND DRUG INGREDIENTS .....................4

          CLAIMS FOR COMPOUND DRUG INGREDIENTS NOT LISTED ON
           QUARTERLY DRUG TAPES...................................................................................5

          RECOMMENDATIONS...............................................................................................6

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE.................................................................................................................6

APPENDIX

          DEPARTMENT OF HEALTH CARE SERVICES COMMENTS




                                                                    iv
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers the Medicaid program.

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital, physician, and family planning services. States also may offer certain
optional services, such as outpatient prescription drugs, as long as the services are included in
their approved State plans.

Medicaid Outpatient Prescription Drug Program

All States offer outpatient prescription drugs to eligible Medicaid beneficiaries. Most States,
including California, administer their Medicaid prescription drug programs in accordance with
the Medicaid drug rebate program. 1 The program generally pays for covered outpatient drugs if
the drug manufacturers have rebate agreements with CMS and pay rebates to the States. The
rebate agreements and related regulations (42 CFR § 447.510) require manufacturers to provide a
list of all covered outpatient drugs to CMS quarterly. CMS includes these drugs on a quarterly
Medicaid drug tape, makes adjustments for any errors, and sends the tape to the States. The tape
indicates a drug’s termination date,2 if applicable, specifies whether the drug is less than
effective, 3 and includes information that the States use to claim rebates from drug manufacturers.
Drugs are identified on the tape by a unique 11-digit numerical code (drug code) that indicates
the manufacturer, product, and package size. CMS guidance instructs the States to use the tape
to verify coverage of the drugs for which they claim reimbursement and to calculate the rebates
that the manufacturers owe.



1
 The Omnibus Budget Reconciliation Act of 1990 established the Medicaid drug rebate program effective
January 1, 1991. The program is set forth in section 1927 of the Act. Arizona is the only State that does not
participate in the program.
2
  The termination date, which the manufacturer submits to CMS, reflects the shelf-life expiration date of the last
batch sold for a particular drug code. However, if the drug is pulled from the market for health or safety reasons, the
termination date is the date that the drug is removed from the market.
3
 The Food and Drug Administration determines whether drugs are less than effective. Such drugs lack substantial
evidence of effectiveness for all conditions of use prescribed, recommended, or suggested in their labeling.


                                                          1
Compound Drugs

Pharmacists create compound drugs by combining two or more prescription or nonprescription
drug products and then repackaging them into a new form. 4 For each compound drug claim,
CMS guidance states that the drug code and corresponding quantity for each ingredient must be
included on the claim for Medicaid reimbursement. 5

Reimbursement of Medicaid Expenditures

In California, the State agency claims Medicaid expenditures on Form CMS-64, Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program. CMS reimburses the
State agency based on the Federal medical assistance percentage (reimbursement rate) for the
majority of claimed Medicaid expenditures, including some outpatient drug expenditures.

For Federal fiscal years (FY) 2004 and 2005, California’s reimbursement rate for Medicaid
expenditures varied from 50 percent to 90 percent.

Prior Office of Inspector General Report

In April 2009, we issued a report on California’s Medicaid outpatient drug expenditures for FYs
2004 and 2005. 6 We found that the State agency’s claims for Federal reimbursement for these
expenditures did not fully comply with Federal requirements. We excluded from our review
approximately $75 million for compound drug expenditures for which the State agency did not
have readily available supporting documentation that identified the individual drug ingredients.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid compound drug expenditures complied with Federal requirements related to whether
the compound drug ingredients were terminated, included on the CMS quarterly drug tapes, or
less than effective.

Scope

We reviewed approximately $58.3 million ($29.5 million Federal share) of the total $75 million
in Medicaid outpatient compound drug expenditures that the State agency claimed for FYs 2004

4
 The U.S. Pharmacopeia provides that “compounding involves the preparation and mixing of one or more
components according to a written prescription specifically for individual patients.” U.S. Pharmacopeia,
Compounding Backgrounder (September 2008).
5
 The CMS guidance was published in 72 Fed. Reg. 39217, 39220 (July 17, 2007) in response to a commenter’s
question about billing of compound drugs.
6
  Review of Medicaid Outpatient Drug Expenditures in California for Fiscal Years 2004 and 2005 (A-09-07-00039),
issued April 27, 2009.


                                                        2
and 2005. The remainder of $16.7 million consisted of $1.2 million in claims for compound
drug expenditures that the State agency voided and $15.5 million in claims for compound drug
expenditures for which the State agency did not provide ingredient detail because the
information was not recorded in electronic format in the Rebate Accounting Information System.
We will review the $15.5 million in a separate audit.

We limited our internal control review to the State agency’s procedures for determining whether
compound drugs were eligible for Medicaid coverage and were accurately claimed for Federal
reimbursement. We did not review the accuracy or completeness of the quarterly Medicaid drug
tapes.

We performed our audit from May 2008 to March 2009 and conducted fieldwork at the State
agency’s offices in Sacramento, California.

Methodology

To accomplish our objective, we reviewed applicable Federal laws, regulations, and program
guidance and the State plan. We interviewed State agency officials responsible for identifying
and monitoring drug expenditures and rebate amounts. We also interviewed staff responsible for
reporting drug expenditures to CMS.

The State agency provided a detailed list of outpatient compound drug claims by quarter, which
included the following: (1) claim number, (2) total claim reimbursement, 7 (3) date of service,
(4) fees paid, (5) ingredients dispensed, (6) quantities dispensed, and (7) ingredient
reimbursement amounts (ingredient costs). To determine which claims received Federal
reimbursement, we compared the detailed list of compound drugs with the compound drugs
excluded from our prior review.

We compared the compound drug ingredients with drug codes included on the CMS quarterly
drug tapes for the period October 1, 1999, through June 30, 2006. We determined whether the
compound drug ingredients for which the State agency claimed reimbursement were dispensed
after the termination or less-than-effective dates listed on the quarterly drug tape. To account for
reasonable delays in processing data for terminated drugs, we used the first day of the quarter
after the State agency received the tape as the termination date if the termination dates were
provided to the State agency retroactively. In addition, we determined whether the compound
drug ingredients claimed for reimbursement were listed on the applicable quarterly drug tape.

We calculated the total questioned expenditures for terminated ingredients and set-aside
expenditures for ingredients not listed on the quarterly tapes based on the ingredient costs. In
determining questioned and set-aside amounts, we excluded ingredients for which we could not
determine the precise amounts reimbursed to providers for these ingredients because (1) a
beneficiary share-of-cost payment was associated with the claim or (2) the State agency

7
 For compound drugs, the State agency reimbursed providers the lesser of (1) total ingredient costs and fees or
(2) the total amount billed by the provider. The State agency determined an ingredient’s cost as the lesser of (1) the
maximum payment that the State would make for that ingredient based on its quantity or (2) the amount that the
provider billed for that ingredient.


                                                          3
reimbursed the provider based on the total billed. (For some of these claims, the ingredient costs
exceeded the amount billed by the provider.)

We calculated the Federal share for questioned terminated drugs and the set-aside expenditures
for drugs not listed on the quarterly drug tapes using the lowest reimbursement rate applicable
for each quarter. We did not reduce the questioned drug expenditures by any rebate credits that
the State agency received.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency’s claims for reimbursement of Medicaid compound drug expenditures for
FYs 2004 and 2005 did not fully comply with Federal requirements. Of the $58.3 million
($29.5 million Federal share) reviewed:

      $759,078 ($383,467 Federal share) represented expenditures for compound drug
       ingredients that were not eligible for Medicaid coverage because they were terminated
       drugs for which the termination dates were listed on the CMS quarterly drug tapes before
       the drugs were dispensed and

      $2,649,556 ($1,341,413 Federal share) represented expenditures for compound drug
       ingredients that were not listed on the quarterly drug tapes and that may not have been
       eligible for Federal reimbursement.

The remainder of the $58.3 million reviewed met the Federal requirements described in our
objective.

The State agency had inadequate controls to ensure that all of its compound drug expenditures
complied with Federal requirements related to whether the drug ingredients were terminated and
included on the quarterly drug tapes.

CLAIMS FOR TERMINATED COMPOUND DRUG INGREDIENTS

States are prohibited from claiming expenditures for drugs dispensed after the termination date.
Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date
effectively establishes a shelf life for the product. The termination date equals the expiration
date of the last batch sold, except in cases when the product is pulled from the market. In those
cases, the termination date may be earlier than the expiration date.




                                                 4
According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 19, the States “MUST … ASSURE that claims submitted by pharmacists are NOT for
drugs dispensed AFTER the termination date. These should be rejected as invalid since these
drugs cannot be dispensed after this date.” (Emphasis in original.)

The CMS Medicaid drug rebate program release to State Medicaid directors, number 130, states
that “… the CMS [quarterly drug tape] is the one to use for ALL data when you are dealing with
the drug rebate program.” The quarterly drug tapes list the Medicaid-covered drugs’ termination
dates as reported by the drug manufacturers.

For FYs 2004 and 2005, the State agency claimed $759,078 ($383,467 Federal share) in
expenditures for compound drug ingredients that, according to the State agency’s records, were
dispensed after the termination dates shown on the quarterly drug tapes. For example, the State
agency paid for the drug Prograf (an ingredient in a compound drug), which was dispensed on
March 1, 2005; however, the drug’s termination date was December 31, 2003. The termination
date appeared on the quarterly tapes from the quarter beginning April 1, 2002, through the
quarter ending March 31, 2005. (Two other ingredients in this compound drug were listed on the
quarterly tapes and did not have termination dates.) The claimed expenditure for the terminated
drug ingredient was unallowable because it occurred after the drug’s termination date, which was
listed on the quarterly tape when the State agency paid for the compound drug.

The State agency indicated that the CMS quarterly drug tapes do not provide timely information
on drug termination dates. The State agency commented that it “often receives notification from
a drug manufacturer years after the drug has been removed from the market and is obsolete, yet
there is nothing on the CMS [quarterly drug tape] denoting any change in the drug status.” The
State agency also indicated that its electronic formulary file allowed payments for some
terminated drugs. Further, the State agency indicated that this file lists both Medicaid-covered
and non-Medicaid-covered drugs and is used to process all pharmacy claims.

CLAIMS FOR COMPOUND DRUG INGREDIENTS NOT LISTED
ON QUARTERLY DRUG TAPES

Section 1927(a)(1) of the Act generally conditions Medicaid reimbursement for covered
outpatient drugs on a requirement that manufacturers of those products enter into rebate
agreements with CMS under which they pay rebates to the States. 8 The rebate agreements
require manufacturers to provide a list of all covered outpatient drugs to CMS quarterly. CMS
includes these drugs on the quarterly drug tapes and makes adjustments for any errors.
According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 130: “… the CMS [quarterly drug tape] is the one to use for ALL data when you are
dealing with the drug rebate program. … If [a drug code] that is not on the last CMS [quarterly
drug tape] you received is billed to you by a pharmacy … check with CMS to assure that the
[drug code] is valid ….” Furthermore, the CMS Medicaid drug rebate program release to State


8
  Pursuant to section 1927(a)(3) of the Act, a State may exempt certain drugs from the requirement to be covered by
a drug rebate agreement if the State has determined that availability of the drug is essential to the health of Medicaid
beneficiaries.


                                                           5
Medicaid directors, number 44, provides that: “… States must check the [quarterly drug tape] to
ensure the continued presence of a drug product ….”

The CMS Medicaid Drug Rebate Operational Training Guide, page S13, states: “If you have
paid for [a drug code] that is NOT on [the quarterly drug tape] you should have checked to make
sure it was correct. If you paid a pharmacy for utilization on an invalid [drug code], you may
have to … recoup your funds.”

For FYs 2004 and 2005, the State agency claimed $2,649,556 ($1,341,413 Federal share) in
expenditures for compound drug ingredients that were not listed on the quarterly drug tapes. We
set aside these potentially unallowable expenditures because the State agency did not verify with
CMS whether drugs not listed on the quarterly tape were eligible for Medicaid coverage.
According to State agency documentation, the claims processing system did not identify which
drugs in the formulary file were eligible for Federal reimbursement. In addition, the State
agency did not contact CMS to ensure that drugs not listed on the quarterly drug tapes were
eligible for Medicaid coverage under the Act.

RECOMMENDATIONS

We recommend that the State agency:

      refund $383,467 (Federal share) to the Federal Government for expenditures for
       compound drug ingredients that were not eligible for Medicaid coverage;

      work with CMS to resolve $1,341,413 (Federal share) in expenditures for compound drug
       ingredients that were not listed on the quarterly drug tapes and that may not have been
       eligible for Medicaid coverage; and

      ensure that claimed Medicaid compound drug expenditures comply with Federal
       requirements, specifically:

           o claim expenditures only for compound drug ingredients that are dispensed before
             the termination dates listed on the quarterly drug tapes and

           o verify whether compound drug ingredients not listed on the quarterly drug tapes
             are covered under the Medicaid program and notify CMS when drugs are missing
             from the tapes.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report (included in their entirety as the Appendix), the State agency
did not specifically agree with our refund in the first recommendation. However, the State
agency commented that it would request that providers resubmit claims using correct drug codes
or would recoup the amounts paid for terminated ingredients. The State agency said that it
would adjust the Federal share to reflect these actions. The State agency agreed with our second


                                                6
recommendation to work with CMS to resolve the Federal share for drugs not listed on the
quarterly drug tapes.

The State agency did not specifically agree with our third recommendation. The State agency
commented that it would (1) continue to make changes to its claim processing system to ensure
that terminated drugs are not reimbursed and (2) work with the new fiscal intermediary to change
the reporting process in the new claims processing system to ensure that nondrug items are
claimed in the appropriate reporting categories. The State agency did not address the last part of
our third recommendation.

We continue to recommend that the State agency notify CMS when drugs are missing from the
quarterly drug tapes.
.




                                                7
APPENDIX
                                                                                                                      Page 10f4


APPENDIX: DEPARTMENT OF HEALTH CARE SERVICES COMMENTS 





                               State of California-Health and Human Services Agency
 "HCS                          Department of Health Care Services

DAVID MAXWELL.JOLtY                                                                                    ARNOLD SCHWARZENEGGER
       Director                                                                                                Governor



       JAN 2 7 2010

        Ms. Lori A. Ahlstrand 

        Regional Inspector General for Audit Services 

        Office of Audit Services 

        Office of Inspector General 

        90 - 7th Street, Suite 3-650 

        San Francisco, CA 94103 


        Dear Ms. Ahlstrand:

       The California Department of Health Care Services (DHCS) has prepared its response
       to the U.S. Department of Health and Human Services, Office of Inspector General
       (DIG), draft report entitled "Review of Medicaid Compound Drug Expenditures in
       California for Fiscal Years 2004 and 2005" (A-09-0B-00034). DHCS appreciates the
       work performed by the OIG and the opportunity to respond to the draft report.

       Please contact Ms. Traei Walter, Audit Coordinator, at (916) 650-0298 if you have any
       questions.




       Toby Douglas 

       Chief Deputy Director 

       Health Care Programs 


        ec:     See next page




                      1501 Capitol Avenue, Suite 71.6001, MS 0002· P.O. 997413· Sacramento. CA 95899-7413 

                                                (9i6) 440-7400· (916) 440-7404 FAX 

                                               Internet address: \WVW.dhcs.ca.gov 

                                                                 Page 2 of4




Ms. Lori A. Ahlstrand 

Page 2 

JAN 2 7 2010 



cc: 	   Ms. Vanessa Baird 

        Deputy Director 

        Health Care Policy 

        1501 Capitol Avenue, MS 4000 

        P.O. Box 997413 

        Sacramento, CA 95899-7413 


        Ms. Pilar Williams, Chief 

        Pharmacy Benefits Division 

        1501 Capitol Avenue, MS 4604 

        P.O. Box 997413 

        Sacramento, CA 95899-7413 


        Ms. Maria Enriquez, Chief 

        Fiscal Intermediary and Contracts Oversight Division 

        1501 Capitol Avenue, MS 4700 

        P.O. Box 997413 

        Sacramento, CA 95899-7413 

                                                                                                     Page 3 of4




                          Department of Health Care Services 

            Response to the Office of Inspector General's Draft Report Entitled 


              Review of Medicaid Compound Drug Expenditures in California
                             for Fiscal Years 2004 and 2005
                                            A-09-08-00034


Recommendation:      Refund $383,467 (Federal share) to the Federal Government for
                     expenditures for compound drug ingredients that were not eligible for
                     Medicaid coverage.

Response:            The Department will contact the providers who submitted the claims in
                     vvhich   ~Jationat   Drug Code   (~~DC)   numbers for terminated drugs 'vvera
                     listed. The Department will ask the provider to resubmit the claim using
                     the correct NDC number of the drug used or will recoup the amount paid
                     for the terminated NDC from the provider. The Department will then
                     adjust the Federal share to reflect these actions.


Recommendation: 	 Work with the Centers for Medicare & Medicaid SeNices (eMS) to
                  resolve $1,341,413 (Federal share) in expenditures for compound drug
                  ingredients that were not listed on the quarterly drug tapes and that may
                  not have been eligible for Medicaid coverage.

Response: 	          The Department will work with eMS to resolve this issue. In reviewing
                     the spreadsheet provided by the Office of Inspector General (DIG), the
                     Department has noted Food and Drug Administration (FDA) approved
                     drugs that should have been on the quarterly CMS tape. The
                     information on the CMS quarterly tape comes from manufacturers; the
                     information submitted by manufacturers is not audited for completeness
                     and therefore could be missing NDC numbers. Further investigation is
                     required to assess why a particular NDC was not on the CMS quarterly
                     tapes.

                     The Department also noted items that are non-drug items that should
                     have been reported under other categories of the CMS-64 report (e.g.
                     medical supplies). These items are eligible for federal matching funds.

Recommendation: 	 Ensure that claimed Medicaid compound drug expenditures comply with
                  Federal requirements, specifically:

                              • 	 claim expenditures only for compound drug ingredients that
                                  are dispensed before the termination dates listed on the
                                  quarterly drug tapes and
                                                                                   Page 4 of4




                  • 	 verify whether compound drug ingredients not listed on the
                      quarterly drug tapes are covered under the Medicaid program
                      and notify CMS when drugs are missing from the tapes.

Response:   As noted in response to previous DIG audits, the Department continues
            to make changes to the pharmacy claims processing system to ensure
            that terminated NDC numbers are not reimbursed. Because a
            compound drug claim can contain multiple ingredients, further analysis is
            required to determine how non-drug items that appear in a compound
            drug claim can be claimed on the eMS-64 appropriately. Because a
            new Medicaid Management Information System (MMIS) and change in
            the Fiscal Intermediary (FI) is imminent, the Department will work with
            the new FI to analyze and then change the CMS-64 reporting process in
            the new MMiS to ensure non-drug items are ciaimed in the appropriate
            reporting categories.




                                    2
